No. 20-_____
IN THE SUPREME COURT OF THE UNITED STATES
JAMES GALEN HANNA,
Petitioner
vs.
TIM SHOOP, Warden
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
CERTIFICATE OF SERVICE

I certify that James Galen Hanna’s petition for writ of certiorari, appendix,
and motion to proceed in forma pauperis were served, via electronic service, upon
counsel for the Respondent, Stephen E. Maher, Esq., Office of the Attorney General
of Ohio, 30 East Broad Street, 23rd Floor, Columbus, Ohio 43215, this the 30th day of
June, 2021.

Respectfully Submitted,

Deborah L. Williams
Federal Public Defender
Allen L. Bohnert
* Paul R. Bottei
Jacob A. Cairns
Assistant Federal Public Defenders
Office of the Federal Public Defender
Southern District of Ohio
10 West Broad Street, Suite 1020
Columbus, Ohio 43215
(614) 469-2999
* Counsel of Record
/s/ Paul R. Bottei

